E           valuation


R            eport

          FY 2001 DOD INFORMATION SECURITY STATUS FOR
           GOVERNMENT INFORMATION SECURITY REFORM



Report No. D-2001-184                        September 19, 2001




             Office of the Inspector General
                 Department of Defense
      Additional Copies

      To obtain additional copies of this evaluation report, visit the Inspector General,
      DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
      Reports Distribution Unit of the Audit Followup and Technical Support
      Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

      Suggestions for Future Evaluations

      To suggest ideas for or to request future audits, contact the Audit Followup and
      Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
      fax (703) 604-8932. Ideas and requests can also be mailed to:

                     OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                        Inspector General, Department of Defense
                           400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-4704

      Defense Hotline

      To report fraud, waste, or abuse, contact the Defense Hotline by calling
      (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
      by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
      The identity of each writer and caller is fully protected.




Acronyms
AIS                Automated Information System
CIO                Chief Information Officer
DISA               Defense Information Systems Agency
DITSCAP            DoD Information Technology Security Certification and
                      Accreditation Process
GISRA              Government Information Security Reform Act
IT                 Information Technology
NIPRNet            Non-secure Internet Protocol Router Network
OMB                Office of Management and Budget
                      Office of the Inspector General, DoD
Report No. D-2001-184                                              September 19, 2001
  Project No. D2001AD-0071.002

               FY 2001 DoD Information Security Status for
                Government Information Security Reform

                                 Executive Summary

Introduction. The Government Information Security Reform Act (the Act) directs
each Federal agency to evaluate its information security program and practices annually
and, as part of the budget process, submit the results to the Office of Management and
Budget. The Act covers unclassified and national security systems and creates the same
security management framework for each. The Act establishes parallel requirements
for the agency and the agency Inspector General. Specifically, the Act requires DoD to
annually evaluate its information security program and practices and confirm their
effectiveness by testing a subset of systems. The Act also requires the Office of the
Inspector General to evaluate the DoD information security program and practices and
to independently select and test a subset of systems to confirm the effectiveness of the
information security program.

Objectives and Scope. The overall objective was to respond to the requirements of the
Government Information Security Reform Act, title X, subtitle G of the FY 2001
Floyd D. Spence National Defense Authorization Act (Public Law 106-398). The
Office of the Inspector General, DoD, selected an independent subset of applications to
assess the effectiveness of DoD information security policy and practices. The Army
Audit Agency and the Air Force Audit Agency supported the Office of the Inspector
General, DoD, in that review. In addition, the Office of the Inspector General, DoD,
identified and summarized information security and information assurance concerns
from April 1, 2000, through August 22, 2001. The subset results, the information
assurance report summary, and the Army Audit Agency and Air Force Audit Agency
specific discussion of the questions posed by the public law form the basis of our
results.

Results. Although DoD has made progress in developing various information
assurance initiatives, DoD still needs to establish and implement a DoD-wide
information security plan to better manage and coordinate collective efforts by the DoD
Components in protecting and defending DoD systems and networks. The results that
follow appear with the corresponding number from the Office of Management and
Budget reporting guidance. The guidance requires the Office of the Inspector General,
DoD, to respond to questions 2 through 13.
2. Identify the total number of programs included in the program reviews or
independent evaluations.

The Office of the Inspector General, DoD, the Army Audit Agency, and the Air Force
Audit Agency collaborated on a review of a subset of applications resident on the
Defense Information Systems Agency-owned Centers and Detachments. The statistical
sample randomly selected from that subset was 90 of 1,365 applications, organized by
unique names from a total population of 4,939 applications. The Defense Enterprise
Computing Centers and Detachments support multiple DoD Components, installations,
and functions. The applications support functions that include financial accounting;
personnel; pay and disbursement; materiel shipping, receiving, and storing; munitions
maintenance; and weapon systems.

3. Describe the methodology used in the program reviews and the methodology
used in the independent evaluations.

To assess the information technology security posture of DoD, the Office of the
Inspector General, DoD, selected a random sample of business applications from a
subset of systems. For those applications, the objective was to identify security
personnel, such as the Information System Security Officer and the Designated
Approval Authority, and to determine whether the applications had a Certification and
Accreditation or an Interim Authority to Operate.

4. Report any material weakness in policies, procedures, or practices as identified
and required under existing law.

Of 49 reports summarized in Inspector General, DoD, Report No. D-2001-182,
“Information Assurance Challenges—a Summary of Audit Results Reported April 1,
2000, through August 22, 2001,” September 19, 2001, 23 reports identified weaknesses
in policies, procedures, or practices concerning information assurance. Thirteen
reports specified that the control weaknesses identified were material.

5. Describe the specific measures of performance used to ensure program officials
have: 1) assessed the risk to operations and assets under their control;
2) determined the level of security appropriate to protect such operations and
assets; 3) maintained an up-to-date security plan (that is practiced throughout the
life cycle) for each system supporting the operations and assets under their control;
and 4) tested and evaluated security controls and techniques. Include information
on the actual performance for each of the four categories.

The DoD integrated assessing risk, identifying appropriate security level, maintaining a
current security plan, and testing and evaluating security controls and techniques into its
DoD Information Technology Security Certification and Accreditation Process
program. Based on the results of our review of the subset of systems from the Defense
Enterprise Computing Centers and Detachments, DoD had not fully implemented
security policy. Written, current certification and accreditations were not available for
an estimated 60 percent of the subset population of 1,365 applications. Certification
and accreditation are the technical evaluation of security features of an application or


                                            ii
system and the formal declaration to operate the application or system. The DoD
managers had not fully implemented information security policy because definitions for
system, application, and other means of establishing security parameters and
responsibilities were unclear. The parameters of and responsibility for information
security were made more complex by the DoD practice of approving different
organizations to design, develop, manage, use, and operate information technology
applications.

6. Describe the specific measures of performance used to ensure that the CIO:
1) adequately maintains an agency-wide security program; 2) ensures the effective
implementation of the program and evaluates the performance of major agency
components; and 3) ensures the training of agency employees with significant
security responsibilities. Include information on the actual performance for each
of the three categories.

Although DoD Directive 5200.28 specifically assigns oversight and review for
implementation of its stated policies to the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence), the Assistant Secretary had no mechanism
in place to provide that oversight. Additionally, the directive assigns responsibility to
DoD Component heads for implementing and ensuring compliance with the directive,
and for programming funds and resources to support information security. The DoD
Components also had no mechanisms for comprehensively measuring compliance with
DoD Directive 5200.28. The Assistant Secretary also had not established a DoD
enterprise information security plan to consistently apply information assurance to all
DoD systems and networks. Further, the changing information technology
environment made it difficult to maintain current security policies and practices.

7. Describe how the agency ensures that employees are sufficiently trained in their
security responsibilities. Identify the total number of agency employees and briefly
describe what types of security training were available during the reporting period,
the number of agency employees that received each type of training, and the total
costs of providing such training.

The Office of the Inspector General, DoD, did not identify the total number of DoD
employees who required information security training, the types of security training
available during the reporting period, the number of DoD employees who received each
type of training, or the total costs of providing training. Specifically, the Office of the
Inspector General, DoD, observed, in Report No. D-2001-182, that the DoD was
progressing towards its information assurance training and certification requirements.
DoD established the Human Resources Development Functional Area to develop and
institute the means to continually improve education, training, and awareness of
personnel required to carry out the DoD information assurance mission.

8. Describe the documented procedures for reporting security incidents and
sharing information regarding common vulnerabilities. Include a description of
procedures for external reporting to law enforcement authorities and to the




                                            iii
General Services Administration’s FedCIRC. Include information on the actual
performance and the number of incidents reported.

Prior audit and investigative coverage showed that, although the DoD was making
progress in reporting and investigating security incidents, additional improvements were
needed. Inspector General, DoD, Report No. D2001-013, “DoD Compliance With the
Information Assurance Vulnerability Alert Policy,” December 1, 2000, evaluated the
DoD procedures for reporting security incidents and sharing information about common
vulnerabilities. The report stated that DoD had made significant progress towards
implementing its procedures and planned to be fully compliant by April 2001.
However, as of August 31, 2001, the Office of the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence) had not issued a formal
instruction, identified the positions and skills needed by the primary and secondary
points of contact, or issued an implementation plan for the Information Assurance
Vulnerability Alert process. The Army Audit Agency noted that the Army improved its
information security posture by establishing the Army Computer Emergency Response
Team and the Information Assurance Vulnerability Alert Compliance Verification
Team.

In the area of computer crime, in FY 2001, the Defense Criminal Investigative
Organizations (the Army Criminal Investigation Command, the Naval Criminal
Investigative Service, the Air force Office of Special Investigations, and the Defense
Criminal Investigative Service) initiated 194 investigations, closed 178 investigations,
had 24 indictments and 18 convictions, and recovered and avoided costs of
$2.9 million.

9. Describe how the agency integrates security into its capital planning and
investment control process. Were security requirements and costs reported on
every FY02 capital asset plan (as well as exhibit 53) submitted by the agency to
OMB? If no, why not?

The Office of the Inspector General, DoD, cannot comment on whether DoD reported
security requirements and costs on every FY 2002 capital asset plan or exhibit 53
submitted to the Office of Management and Budget because it did not examine those
plans. However, the Army Audit Agency reviewed some aspects of capital planning
and investment that it reported in Report No. AA 01-284, “Workload Survey for
Information Technology,” May 31, 2001. Specifically, the Army Audit Agency
reported that the Army had an Investment Strategy Working Group that prioritized
information technology investments and aligned the Army’s portfolio of systems with
its requirements.

10. Describe the specific methodology used to identify, prioritize, and protect
critical assets within the enterprise architecture, including links with key external
systems. Describe how the methodology has been implemented.

The Office of the Inspector General, DoD, did not specifically review a methodology
used by the DoD to identify, prioritize, and protect critical assets within its enterprise
architecture. However, the Office of the Inspector General, DoD, identified the need


                                             iv
to improve contingency planning and certification and accreditation efforts. Those are
areas that help DoD protect critical assets and information.

11. Describe the measures of performance used by the head of the agency to
ensure that the information security plan is practiced throughout the life cycle of
each system. Include information on the actual performance.

The DoD Information Technology Security Certification and Accreditation Process,
according to DoD Instruction 5200.40, applies to all life-cycle phases of DoD systems.
The DoD did not have a means of evaluating and consolidating information assurance
data to report the DoD information security posture, as evidenced by results from the
Inspector General review of the selected subset of applications. That review showed
60 percent of the 1,365 applications did not have current certifications and
accreditations made by using the DoD Information Technology Security Certification
and Accreditation Process or any other assessment tool.

12. Describe how the agency has integrated its information and information
technology security program with its critical infrastructure protection
responsibilities, and other security programs.

The Office of the Inspector General, DoD, participated in the Joint Task Force—
Computer Network Defense and the National Infrastructure Protection Center
programs. Both programs contribute to the protection of critical infrastructure assets
and information.

13. Describe the specific methods used to ensure that contractor-provided services
or services provided by another agency are adequately secure and meet the
requirements of the Security Act, OMB policy and NIST guidance, national
security policy, and agency policy.

Audits are one method DoD uses to help identify weaknesses in the acquisition policies
and procedures for information technology services. Five reports, by the Office of the
Inspector General, DoD, and the Air Force Audit Agency, identified weaknesses with
contractor-provided information technology services. One of the weaknesses identified
was the failure to require security investigations of contractor employees, including
foreign nationals, prior to the employees writing software code for critical systems. In
addition, those reports documented commercial packages that did not have adequate
controls to safeguard sensitive financial information and contracts that did not have
adequate contract administration for security requirements.

Recommendations to Improve the Government Information Security Reform
Reporting Process. The Office of the Inspector General, DoD, recommends that the
Office of Management and Budget take the following actions to improve the process of
responding to the Government Information Security Reform Act.

     • Carefully define terminology in future reporting guidance. Interpretations of
       the terminology used to discuss information security varied and resulted in
       responses about very different things. Terms that were subject to interpretation


                                           v
  and extensive debate included system, application, network, mission-critical,
  and mission-essential. The guidance needs to define the terminology to the
  extent necessary for comparable discussions.

• Clarify what the agency should evaluate for information security. The debate
  on terminology extends to the items that an agency should consider in
  evaluating information security. The guidance should specify that all
  information technology investments are included. Further, the distinction
  between national security systems and all other systems should be discontinued
  to facilitate consistent information security coverage.

• Improve the timing of guidance and responses. Guidance on the specific
  information that the agencies should include in their reports to the Congress
  needs to be available at the beginning of the reporting year. The official
  Government Information Security Reform reporting guidance was not available
  until late June 2001 for a reporting date of October 1, 2001. Changes to the
  questions for discussion for the next reporting period need to be available
  before the agencies plan and accomplish the reviews to provide responses to the
  Government Information Security Reform Act requirements. If the
  Government Information Security Reform Act continues to require the
  Inspector General, DoD, to report results from audits of independent
  evaluations on national security systems, the Office of Management and Budget
  should initiate a legislative request to establish a separate reporting period for
  national security systems. That reporting period should allow sufficient time
  for the audit function to validate the results of the independent evaluations.




                                      vi
Table of Contents

Executive Summary

Introduction
     The Inspector General, DoD, Response to Address the Government
       Information Security Reform Act                                  1
     Background                                                         3
     Objectives                                                         4

Finding
     Responses to Questions on Government Information Security Reform   5

Appendixes
     A. Evaluation Process
          Scope                                                         16
          Methodology                                                   17
     B. Prior Coverage                                                  20
     C. Army Audit Agency Responses to Office of Management and
         Budget Questions                                               25
     D. Air Force Audit Agency Responses to Office of Management
          and Budget Questions                                          36
     E. Reports Specifying Management Control Weaknesses                42
     F. Report Distribution                                             46
The Inspector General, DoD, Response to Address the
  Government Information Security Reform Act
    General Provisions of Government Information Security Reform. On
    October 30, 2000, the President signed the Defense Authorization Act of
    FY 2001 (Public Law 106-398) that included title X, subtitle G, “Government
    Information Security Reform” Act (GISRA). Subtitle G provides for ensuring
    effective controls for highly networked Federal information resources,
    management and oversight of information security risks, and a reporting
    mechanism for improved information system security oversight and assurance
    for Federal information security programs. The GISRA directs each Federal
    agency (the DoD for purposes of this report) to evaluate its information security
    program and practices annually and, as part of the budget process, submit the
    results to the Office of Management and Budget (OMB). The GISRA covers
    unclassified and national security systems and creates the same security
    management framework for each.

    DoD and Inspector General Provisions of GISRA. The GISRA establishes
    parallel requirements for the agency and the agency Inspector General. It
    requires DoD to annually evaluate its information security program and
    practices and confirm their effectiveness. GISRA also requires the Office of the
    Inspector General to independently evaluate the DoD information security
    program and practices, and select and test a subset of systems to confirm the
    effectiveness of the information security program.

    The Subset Selected by the Office of the Inspector General. The Office of
    the Inspector General, DoD, selected its independent subset of systems from the
    applications supported by the Defense Enterprise Computing Centers (the
    Centers) and Detachments of the Defense Information Systems Agency (DISA).
    As of February 2001, DISA billed its customers to run 4,939 applications,
    comprising 1,365 unique-named applications, that became the source of the
    subset sample. We chose a random sample of 90 applications from the
    population of 1,365. The Army Audit Agency evaluated 34 applications and the
    Air Force Audit Agency evaluated 19 applications supporting their respective
    Components. The Office of the Inspector General, DoD, evaluated the balance
    of 37 applications, which supported the Navy, the Defense Finance and
    Accounting Service, and the Defense Logistics Agency.

    OMB Guidance and Reporting Instructions for GISRA. The OMB issued
    guidance implementing GISRA in memorandum M-01-08, “Guidance on
    Implementing the Government Information Security Reform Act,” January 16,
    2001. That guidance broadly outlined responsibilities within agency structures
    for evaluating and reporting information security.

    On June 22, 2001, the OMB issued the memorandum 01-24, “Reporting
    Instructions for the Government Information Security Reform Act,” that it
    directed to the heads of executive departments and agencies. Memorandum 01-
    24 provides instructions for completing the executive summary required by the
    GISRA. OMB directed agency Chief Information Officers (CIO) and program


                                        1
officials, including the DoD, to respond to 14 comprehensive questions
described in the memorandum. Each agency Inspector General would respond
to questions on the results of its independent evaluation of the agency’s
information security status except those questions concerning the total
information security funding and the strategy to correct security weaknesses.

Sources of Support for GISRA Reporting Requirements. A primary source
of support for our responses to the OMB questions was the evaluation of the
independently selected subset from the applications operating at the DISA
Centers and Detachments. The Army Audit Agency and the Air Force Audit
Agency contributed significantly to that evaluation. In addition, those audit
agencies provided the Office of the Inspector General, DoD, with responses to
the OMB questions for their respective Components. (See Appendix C for the
Army Audit Agency responses and Appendix D for the Air Force Audit Agency
responses.) Reports, evaluations, and information collected for the period from
April 2000 through August 2001 from the following sources were also used to
develop the responses: General Accounting Office; Office of the Inspector
General, DoD, Army Audit Agency, Naval Audit Service, and Air Force Audit
Agency.

We did not validate the DoD responses to the OMB questions because the DoD
and the Office of the Inspector General, DoD, concurrently collected and
evaluated data and developed separate responses to submit to OMB.

We could not obtain comprehensive information to respond to all of the OMB
questions. In keeping with the January 16, 2001, OMB memorandum, we
selected a subset of systems from the business applications operated at the DISA
Centers and Detachments to test the effectiveness of the DoD security program
and practices. In our overall response, we also used those audits, evaluations,
and inspections completed during FY 2001 that addressed information security.
We were unable to plan the reviews to respond specifically to the OMB
questions because those questions were not available until June 2001.
Recommendations to Improve the GISRA Process. The experience gained in
responding to GISRA requirements for the first time highlighted some
opportunities to improve the process. Our recommendations for the OMB are in
the following discussion.

          Carefully Define GISRA Terminology. Interpretations of the
terminology used to discuss information security varied and resulted in very
different responses to GISRA requirements and OMB questions. For example,
the OMB guidance asked that the agency identify the total number of programs
included in the program review. The Air Force Audit Agency interpreted
program to mean operational programs, such as the Air Force Materiel
Command system, “Programmed Depot Maintenance Scheduling System
(GO97).” In contrast, the Army Audit Agency interpreted program to mean
functional areas of interest such as the Army-wide security program, “Network
Security Improvement Program (sustaining base).” Other terminology that was
subject to interpretation and extensive debate included system, application,



                                    2
    network, mission-critical, and mission-essential. We believe OMB needs to
    define the terminology to the extent necessary for comparable topic discussions.

              Clarify What the Agency Should Evaluate for Information
    Security. The debate of terminology extended to the items that an agency
    should consider in information security evaluations. Interpretations also varied
    on whether GISRA applied to non-mission-critical and non-mission-essential
    weapons systems, communications networks, business systems, and Information
    Technology (IT) funded outside the DoD IT Registry requirements. We believe
    that OMB should clarify its guidance to include all IT investments. Further, we
    believe that the distinction between national security systems and all other
    systems should be discontinued to facilitate consistent information security
    coverage.

              Improve the Timing of Guidance and Responses. The OMB needs
    to issue guidance on the specific information that the agencies should include in
    their reports to OMB and Congress at the beginning of the reporting year. The
    official GISRA reporting guidance was not available until late June 2001, which
    left insufficient audit lead time because of the firm reporting date of October 1,
    2001. Changes to the questions for discussion for the next reporting period
    need to be available before the agencies plan and accomplish the reviews to
    provide responses to the GISRA requirements. If GISRA continues to require
    the Inspector General, DoD, to report results from audits of independent
    evaluations on national security systems, OMB should initiate a legislative
    request to establish a separate reporting period for national security systems.
    That reporting period should allow sufficient time for the audit function to
    validate the results of the independent evaluations.

Background
    The DoD IT Universe. The DoD has thousands of IT processes that comprise
    its IT universe. One can categorize those processes according to a variety of
    criteria, including function, criticality, locality, and owner or operator. Two
    categories or populations identified in DoD for the FY 2001 GISRA review
    were the IT Registry systems and the business applications supported by the
    Centers, for which DISA billed its customers. Some of those Center-supported
    processes or applications were also included in the IT Registry, though not all
    were.

              IT Registry Database of Systems. Public Law 106-398, section 811,
    “Acquisition and Management of Information Technology,” requires DoD to
    register all mission-critical and mission-essential IT systems with the DoD CIO
    in the IT Registry. To obtain funding, a system must be in the IT Registry.
    The IT Registry requires 17 data fields, including system name, description,
    functional area, and program manager information. As of August 30, 2001,
    DoD Components registered 3,783 unclassified IT systems with the CIO.

            Center-Supported Applications. The Centers and Detachments
    of DISA provided general support systems, including mainframe computers,


                                         3
     minicomputers, and local area networks, for its customers’ applications. Each
     Center operates under the control of the Center commanding officer, with
     system security functions accomplished by the designated security manager and
     the information systems security manager. The DISA has five Centers that are
     located in Mechanicsburg, Pennsylvania; Columbus, Ohio; St. Louis, Missouri;
     Oklahoma City, Oklahoma; and Ogden, Utah. In addition, there are
     Detachments or satellite sites at 14 other locations. The Center customers are
     the Military Departments and other Defense agencies with installations
     throughout the United States. The customer applications that the Centers and
     Detachments run to support DoD installations include financial accounting;
     personnel; pay and disbursement; materiel shipping, receiving, and storing;
     munitions maintenance; and weapon systems.

     The DoD Information Security Program. The primary document establishing
     the DoD information security program is DoD Directive 5200.28, “Security
     Requirements for Automated Information Systems,” March 21, 1988, which
     provides the mandatory, minimum security requirements for automated
     information systems (AISs) based on acceptable levels of risk.
     Directive 5200.28 has several companion regulatory and procedural documents,
     including DoD Instruction 5200.40, “DoD Information Technology Security
     Certification and Accreditation Process,” (DITSCAP), December 30, 1997.

     The DITSCAP Program. DoD Instruction 5200.40 implements DoD
     Directive 5200.28; it prescribes procedures to accomplish policy goals and
     establishes standards for certifying and accrediting the security of DoD
     IT systems throughout their life cycles.

Objectives
     The overall evaluation objective was to respond to the GISRA requirements of
     title X, subtitle G of the FY 2001 Floyd D. Spence National Defense
     Authorization Act (Public Law 106-398). We did not evaluate the management
     control program separately because the DoD recognized information security
     and assurance programs as a material weakness in its most current Statement of
     Assurance. In addition, the GAO identified information security as a high risk.
     See Appendix A for a discussion of the evaluation scope and methodology. See
     Appendix B for prior coverage related to the evaluation objectives.




                                        4
           Responses to Questions on Government
           Information Security Reform
           The results correspond with the numbered questions from OMB reporting
           guidance. The guidance requires the Office of the Inspector General, DoD, to
           respond to questions 2 through 13.

           2. Identify the total number of programs included in the program reviews
           or independent evaluations.

           The Office of the Inspector General, DoD, the Army Audit Agency, and the Air
           Force Audit Agency collaborated on a review of a subset of systems from the
           applications resident at the DISA-owned Centers and Detachments. The
           statistical sample that we randomly selected from that subset was 90 of
           1,365 applications, organized by unique names from a total population of
           4,939 applications. The statistical sample of 90 applications reviewed resulted
           in a projected point estimate to the population of 1,365 for authority to operate
           as follows:

                                                                     Projected              Percent
                                                                      Results             of Population

           Current Certification and Accreditation
           or Interim Authority to Operate                               501                   36.7

           Indeterminate: retired, transferred,
           insufficient detail available to find status                  410                   30.0

           Other technology with no Certification and
           Accreditation or Interim Authority to Operate                 137                   10.0

           Expired Certification and Accreditation
           or Interim Authority to Operate                                30                    2.2

           No Certification and Accreditation or Interim
           Authority to Operate, or certification only                   288                   21.1
             Total                                                     1,3661                 100.0

           The Centers and Detachments support multiple DoD Components, installations,
           and functions. The applications provide support to functions that include
           financial accounting; personnel; pay and disbursement; materiel shipping,
           receiving, and storing; munitions maintenance; and weapon systems.



1
    The projected point estimates do not add up to the population of 1,365 due to rounding.



                                                      5
In addition to reviewing the subset, the Office of the Inspector General, DoD,
compiled results reported in audits, evaluations, and GAO testimony. Those
results, reported in Report No. D-2001-182, “Information Assurance
Challenges-A Summary of Audit Results Reported April 1, 2000, through
August 22, 2001,” September 19, 2001, were from the Inspector General, DoD,
the General Accounting Office, the Army Audit Agency, the Naval Audit
Service, and the Air Force Audit Agency. We used that compilation to discuss
some of the questions in the OMB reporting guidance. The compilation
included reports that discussed security for 22 IT investments, including
networks and systems for specific user requirements (for example, Air Force
Research Laboratory UNIX-based computer systems, the Integrated Accounts
Payable System, and the Advanced Logistics Program).

The DoD selected its systems for evaluation from a different source than the
Office of the Inspector General. The DoD selected a statistical sample from the
systems listed in the IT Registry. We did not validate the data collected by
DoD. Although the evaluations were of different subsets of systems, both
subsets provide an overview of the complexity and diversity of the DoD IT.

3. Describe the methodology used in the program reviews and the
methodology used in the independent evaluations.

To assess the IT security posture of DoD, we selected a random sample of
applications from a subset of systems. For those applications, the objective was
to identify security personnel, such as the Information System Security Officer
and the Designated Approval Authority, and to determine whether the
applications had a security Certification and Accreditation or an Interim
Authority to Operate. See Appendix A for details of the sample and
methodology.

We obtained additional information for reporting by reviewing reports and
testimony from the Office of the Inspector General, DoD; the General
Accounting Office; the Army Audit Agency; the Naval Audit Service; and the
Air Force Audit Agency. We reviewed those reports and testimony for general
and specific information about the questions set forth in the OMB reporting
guidance.

We coordinated our evaluation efforts with DoD IT officials. However, we did
not evaluate the methodology DoD used to select IT systems, evaluate its
security posture, and develop its responses to the OMB questions.

4. Report any material weakness in policies, procedures, or practices as
identified and required to be reported under existing law (Section 2534(a)(2)
of the Security Act.)

Of the 49 reports summarized in the Information Assurance Challenges report,
23 DoD reports, about 45 percent (issued by the Office of the Inspector
General, Army Audit Agency, Naval Audit Service, and Air Force Audit
Agency), specifically stated that policies, procedures, or practices for
information assurance were a management control weakness. See Appendix E



                                    6
for a listing of those reports. Thirteen reports specified that the management
control weaknesses identified were material. The following reports provide
examples of identified material weaknesses:

Inspector General, DoD, Report No. D-2001-017, “Unclassified but Sensitive
Internet Protocol Router Network Security Policy,” December 12, 2000,
provided an example of a material weakness in management controls. The
Non-secure Internet Protocol Router Network (NIPRNet) is a network of
Government-owned Internet protocol routers used to exchange unclassified but
sensitive information among DoD users. The lack of security policy guidelines
for the NIPRNet was a material management control weakness. The guidance
that the Assistant Secretary of Defense (Command, Control, Communications,
and Intelligence) issued was outdated, unclear about the direct Internet
connection waiver process, and not formal DoD policy. Consequently, the
requirement to follow the guidance was unenforceable and DoD lacked effective
management controls over Internet access. The Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence) agreed to take
corrective actions, which are ongoing.

The Air Force Audit Agency also reported control weaknesses on the NIPRNet.
The weaknesses involving the NIPRNet, along with another information
assurance weakness, resulted in the Air Force reporting the weaknesses in its
FY 2000 Statement of Assurance. Corrective actions planned included fielding
network protection and management tools, certified professionals, and
techniques and procedures to monitor, manage and protect networks. See
question 4, Appendix D, for details.

The Army Audit Agency reviewed documents about the material weakness in
information security that the Army had reported since FY 1996. The Army
statements of assurance reported deficiencies in systems and network security
design and implementation; incident response, containment, and
countermeasures; and information security education, training, and awareness.
The Army’s corrective action plan identified 32 corrective action milestones, of
which 20 were complete by FY 2000. See question 4, Appendix C, for details.

The Naval Audit Service issued Report No. N2000-0045, “Navy Working
Capital Fund Financial Management Feeder Systems for Fiscal Year 1999,”
September 29, 2000, which discussed material control weaknesses with the
feeder systems to the working capital fund. The weaknesses included
inadequate access controls, contingency planning, and system documentation.
The Navy agreed to take corrective actions, which included an inventory of
systems that provide financial data or support financial transactions in the Navy
Working Capital Fund. The corrective actions were ongoing.

5. Succinctly describe the specific measures of performance used by the
agency to ensure that agency program officials have: 1) assessed the risk to
operations and assets under their control; 2) determined the level of security
appropriate to protect such operations and assets; 3) maintained an up-to-
date security plan (that is practiced throughout the life cycle) for each
system supporting the operations and assets under their control; and



                                    7
4) tested and evaluated security controls and techniques. Include
information on the actual performance for each of the four categories.
(Section 3534(a)(2) of the Security Act.)

The DoD integrated the four categories listed into its DITSCAP program.
Based on the results of our review of 90 applications from the subset of
applications from DISA Centers, DoD had not fully implemented security
policy. Written, current certification and accreditations were not available for
an estimated 60 percent of the subset of 1,365 applications. Certification and
accreditation are the technical evaluation of security features of an application or
system and the formal declaration to operate the application or system. The
DoD managers had not fully implemented information security policy because
definitions for system, application, and other means of establishing security
parameters and responsibilities were unclear. The parameters of and
responsibility for information security were further obscured by the DoD
practice of approving different organizations to design, develop, manage, use,
and operate IT applications. In addition, the policy proponent, the Office of the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence); the service provider, DISA; and the Component heads provided
limited oversight of policy implementation or policy applicability to the current
IT environment.

In two reports, the Army Audit Agency recommended that the Army improve
its process for measuring outcomes of information assurance investments. The
Army subsequently developed 10 performance measures pertaining to
information security. However, 6 of the 10 performance measures that the
Army developed addressed only one of the categories from the OMB question:
testing and evaluating security controls and techniques. None of the
performance measures addressed the other OMB question categories of
assessing risk, identifying appropriate security levels, or maintaining a current
security plan. See question 5, Appendix C, for details.

The Air Force Audit Agency determined that managers for 76 percent of the
29 applications that it evaluated (19 applications as part of the Office of the
Inspector General review and 10 supplemental applications) had not measured
performance in any of the four information security categories. The Air Force
managers labeled those systems that did not meet the criteria as legacy systems,
which were systems that have operated for many years. The Air Force results
for new and reengineered systems were more positive. According to results
from Project No. 98066024, “Certification of Standard Systems,”
September 30, 1999, the Air Force effectively assessed risks, determined the
proper level of security, maintained their security plan, and tested the security
for new and reengineered systems. See question 5, Appendix D, for details.

6. Describe the specific measures of performance used by the agency to
ensure that the agency CIO: 1) adequately maintains an agency-wide
security program; 2) ensures the effective implementation of the program
and evaluates the performance of major agency components; and 3) ensures
the training of agency employees with significant security responsibilities.




                                     8
Include information on the actual performance for each of the three
categories. (Section 3534(a)(3)-(5) of the Security Act.)

Although DoD Directive 5200.28 specifically assigns oversight and review of
implementation of its stated policies to the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence), the Assistant Secretary
had not established a mechanism to provide that oversight. Additionally,
Directive 5200.28 assigns responsibility to DoD Component heads for
implementing and ensuring compliance with the endorsed policy and for
programming funds and resources to support information security. The DoD
Components also had no mechanisms for comprehensively measuring
compliance with Directive 5200.28.

In a February 9, 2001, memorandum to all Components, the Assistant Secretary
of Defense (Command, Control, Communications, and Intelligence) stated that
DoD had several vehicles in place to assess information assurance and meet the
intent of GISRA. According to the memorandum, the DoD required a means of
evaluating and consolidating information assurance data to report the DoD
information security posture. With the February memorandum, the Assistant
Secretary established an integrated process team to accomplish that goal. The
team developed only reporting criteria, methodology, and a report format for
the FY 2001 DoD program reviews of unclassified systems; however, neither
the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) nor the integrated process team established a security plan for DoD
enterprise information that would consistently apply information security
requirements to all DoD systems and networks. Further, the changing IT
environment made maintaining current security policies and practices difficult.

7. Describe how the agency ensures that employees are sufficiently trained
in their security responsibilities. Identify the total number of agency
employees and briefly describe what types of security training were
available during the reporting period, the number of agency employees that
received each type of training, and the total costs of providing such
training. (Section 3534(a)(3)(D), (a)(4), (b)(2)(C)(i)-(ii) of the Security Act.)

We did not identify the total number of DoD employees who required
information security training, the types of security training available during the
reporting period, the number of DoD employees who received each type of
training, or the total costs of providing training. In Inspector General, DoD,
Report No. D-2001-182, “Information Assurance Challenges—a Summary of
Results Reported April 1, 2000, through August 22, 2001,” we observed that
the DoD was progressing towards its information assurance training and
certification requirements. DoD established the Human Resources Development
Functional Area to develop and institute the means to continually improve
education, training, and personnel awareness required to carry out the DoD
information assurance mission.

The Information Assurance Challenges report also stated that DoD needs to
further improve its information security training as evidenced by 11 reports that
identified information security training vulnerabilities. For example, one report
stated that the DoD needs to increase user awareness and understanding


                                    9
regarding unusual and suspicious e-mail and other computer-related activities.
Another report stated that to effectively deploy the public key infrastructure,
DoD needs to train both users and system administrators to use complex and
difficult technology.

The Army Audit Agency reported lack of training as a cause of systemic
information security weaknesses in FY 1999 and FY 2000 audit reports. The
Army Audit Agency followed up on those reports and identified Army actions to
identify training needs for information security personnel over the last 2 years.
The Army estimated that it had 14,000 information security personnel who
required training. The Army budget was $2.9 million annually for information
security training over the last 2 years. In FY 2000, the Army trained 6,650
information systems security personnel. The Army goal is to reach all
information systems security personnel to provide the technical training
necessary to protect information systems. See question 7, Appendix C, for
details.

8. Describe the agency’s documented procedures for reporting security
incidents and sharing information regarding common vulnerabilities.
Include a description of procedures for external reporting to law
enforcement authorities and to the General Services Administration’s
FedCIRC. Include information on the actual performance and the number
of incidents reported. (Section 3534(b)(2)(F)(i)-(iii) of the Security Act.)

The results of prior audits and investigations showed that the DoD made
progress in reporting and investigating security incidents, but additional
improvements were needed. For example, Inspector General, DoD, Report
No. D-2001-013, “DoD Compliance With the Information Assurance
Vulnerability Alert Policy," December 1, 2000, evaluated DoD procedures for
reporting security incidents and sharing information about common
vulnerabilities. The report stated that DoD had made significant progress
towards implementing its procedures and planned to be fully compliant by April
2001. However, as of August 31, 2001, the Office of the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence), had not
issued a formal instruction, identified the positions and skills needed by the
primary and secondary points of contact, or issued an implementation plan for
the Information Assurance Vulnerability Alert process.

The Defense Criminal Investigative Service participates as a member of the Law
Enforcement and Counterintelligence Center that DoD established to coordinate
criminal and counterintelligence computer intrusion investigations and to
disseminate relevant information to the military commands. The Defense
Criminal Investigative Organizations (Army Criminal Investigation Command,
Naval Criminal Investigative Service, Air Force Office of Special
Investigations, and Defense Criminal Investigative Service) reported
86 incidents of root access and 313 incidents of other access for the period from
October 1, 2000, through July 31, 2001. The Defense Criminal Investigative
Organizations reported computer crime activity for that period of
194 investigations initiated, 178 investigations closed, 24 indictments, and
18 convictions. The total monetary recoveries and cost avoidance from
computer crime investigations for that period amounted to $2.9 million.


                                    10
Additionally, the Army Audit Agency issued two reports on procedures for
reporting security incidents and sharing common vulnerabilities: Report
No. AA 00-286, “Information Assurance—Phase IV: Reporting Process and
Vulnerability Assessment Results,” June 30, 2000, and Report No. AA 00-287,
“Information Assurance—Phase V: Information Assurance Vulnerability Alert
Process,” June 30, 2000. The Army Audit Agency reported positive progress
towards implementing security incident reporting procedures. According to the
Army Audit Agency, the Army further improved its information security
posture by establishing the Army Computer Emergency Response Team and the
Information Assurance Vulnerability Alerts Compliance Verification Team.
The Compliance Verification Team reports quarterly to the Secretary of the
Army through the Office of the Director of Information Systems for Command
Control, Communications, and Computers. The Army’s Computer Emergency
Response Team accomplished external reporting through the Joint Task Force—
Computer Network Operations. The Joint Task Force communicated
information to the Federal Computer Incident Response Capability and to
external law enforcement. As of June 18, 2001, the Army reported
10,386 incidents. See question 8, Appendix C, for details.

9. Describe how the agency integrates security into its capital planning and
investment control process. Were security requirements and costs reported
on every FY02 capital asset plan (as well as exhibit 53) submitted by the
agency to OMB? If no, why not? (Sections 3533(a)(1)(A)-(B), (b)(3)(C)-(D),
(b)(6) and 3534(a)(C) of the Security Act.)

The Office of the Inspector General, DoD, cannot comment on whether DoD
reported security requirements and costs on every FY 2002 capital asset plan or
exhibit 53 that it submitted to OMB because time did not permit examination of
those plans.

The Army Audit Agency reviewed some aspects of capital planning and
investment that it reported in Report No. AA 01-284, “Workload Survey for
Information Technology,” May 31, 2001. The Army Audit Agency reported
that the Army’s Investment Strategy Working Group prioritized information
technology investments and aligned the Army’s portfolio of systems with its
requirements. In its review of two Management Decision Packages for
information assurance, the Army Audit Agency reported that the Army
disseminated clear guidance on capturing security requirements. In addition, the
Army appropriately identified the Management Decision Packages as its tool to
capture information assurance requirements, report milestones, and specify costs
(training, salaries, and tools). See question 9, Appendix C, for details.

10. Describe the specific methodology (for example, Project Matrix review)
used by the agency to identify, prioritize, and protect critical assets within
its enterprise architecture, including links with key external systems.
Describe how the methodology has been implemented. (Sections
3535(a)(1)(A)-(B), (b)(3)(C)-(D), (b)(6) and 3534(a)(C) of the Security Act.)

We did not identify or review a specific DoD methodology to identify,
prioritize, and protect critical assets within the DoD enterprise architecture.



                                     11
However, the Inspector General, DoD, reported on improvements needed in
related areas.

Mission or Business Area IT Investments. Inspector General, DoD, Report
No. D-2001-175, “Application of Year 2000 Lessons Learned,” August 22,
2001, stated that although the DoD CIO could have used the core processes,
missions, and systems identified during the year 2000 effort to manage
information technology investments, he had not. The report recommended that
the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) implement a mission or business area approach for managing
information technology investments. A mission or business area approach
would necessitate identifying and prioritizing critical assets within the enterprise
architecture.
Identification in the DoD IT Registry. The IT Registry is required by
title VIII, subtitle B, “Information Technology,” section 811, Public
Law 106-398, which directs that all DoD Components must register, and
thereby identify, mission-critical and mission-essential IT systems with the DoD
CIO before the systems can be funded. As of August 30, 2001, DoD
Components registered 3,783 unclassified mission-critical and mission-essential
IT systems in the IT Registry. We compared our subset of systems from DISA
Centers to the IT Registry. Not all systems operated on DISA platforms were
registered. Of the 90 items that the Inspector General, DoD; the Army Audit
Agency; and the Air Force Audit Agency sampled, 21 were also listed in the IT
Registry. In addition, 10 applications in that sample supported 2 other major
systems listed in the IT Registry. We did not review the effectiveness or
completeness of the IT Registry.

The Army Audit Agency conducted a limited review of the Army’s
methodology and use of the IT Registry. The Army Audit Agency reported that
the Army used the IT Registry to identify critical assets, including links with
key external systems. According to the Army Audit Agency’s August 2001
GISRA response, the Army had registered 1,090 mission-critical and mission-
essential systems.

Contingency Planning. Inspector General, DoD, Report No. D-2001-182,
“Information Assurance Challenges--A Summary of Results Reported April 1,
2000, through August 22, 2001,” September 19, 2001, listed 11 reports that
identified weaknesses in contingency planning. Contingency planning also
requires identifying and prioritizing critical assets.

Certification and Accreditation. The DITSCAP establishes a standard
certification and accreditation process for information technology that leads to
more secure system operations and a more secure Defense information
infrastructure. The certification and accreditation process should consider the
system mission, environment, architecture, and impact on the Defense
information infrastructure. The results of the Inspector General, DoD, review
of DITSCAP implementation are discussed in question 11.




                                     12
Programs to Protect Critical IT Assets—Not Evaluated. The DoD had
several programs designed to protect IT assets. The programs did not require
identification or prioritization within the enterprise architecture.

           Defense in Depth. The DoD has an information assurance strategy
called Defense in Depth, which the Office of the Inspector General, DoD, has
not yet evaluated. The Defense in Depth strategy integrates the capabilities of
people, operations, and technology to achieve strong, effective, multi-layer,
multi-dimensional protection. That concept includes firewalls, external routers
to filter unauthorized traffic, switches to process and filter authorized types of
communications, and closing the vulnerabilities in each device connected to the
network.

          Joint Task Force—Computer Network Defense. The Joint Task
Force—Computer Network Defense, which achieved initial operational
capability in January 1999, has the goal of coordinating defense and detecting
intrusion of DoD computer networks and systems. The Joint Task Force
collects data on organized information attacks against critical DoD information
networks, formulates courses of action against threat attacks, coordinates and
directs DoD actions for defense, and prioritizes survey-action and mission-
critical workarounds.

         Law Enforcement and Counterintelligence Center. The Defense
Criminal Investigative Service participates in the Law Enforcement and
Counterintelligence Center. The Center investigates criminal and
counterintelligence computer intrusions, coordinates its investigations with other
law enforcement agencies, and disseminates information to the military
commands to protect the security of military operations.

11. Describe the measures of performance used by the head of the agency
to ensure that the agency’s information security plan is practiced
throughout the life cycle of each agency system. Include information on the
actual performance. (Sections 3533(a)(1)(A)-(B), (b)(3)(C)-(D), (b)(6) and
3534(a)(C) of the Security Act.)

We reviewed the implementation of the DITSCAP process as an objective for
the subset of systems that we sampled. The DITSCAP, according to DoD
Instruction 5200.40, applies to all life-cycle phases of DoD systems. We
determined that an estimated 60 percent of the 1,365 applications from which
we selected our sample did not have current certifications and accreditations,
using the DITSCAP or any other assessment tool. The Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) stated that it
had several vehicles in place to assess information assurance but did not have a
way to evaluate and consolidate information assurance data to report the DoD
information security posture. Without the means of evaluating and consolidating
data, DoD could not measure performance of information security throughout a
system’s life cycle.

12. Describe how the agency has integrated its information and information
technology security program with its critical infrastructure protection



                                    13
responsibilities, and other security programs (for example, physical and
operational). (Sections 3534 (a)(1)(B) and (b)(1) of the Security Act.)

The Office of the Inspector General, DoD, participated in the Joint Task
Force—Computer Network Defense and the National Infrastructure Protection
Center programs. Both programs contribute to the protection of critical
infrastructure assets and information and are described below.

          Joint Task Force—Computer Network Defense. In response to
Presidential Decision Directive 63, “Critical Infrastructure Protection,”
May 1998, the DoD established a joint military organization to identify and
mitigate threats to DoD information networks and direct the defense of the
Defense Information Infrastructure. The mission of the U.S. Space Command,
Joint Task Force—Computer Network Defense is to coordinate and direct the
defense of DoD computer systems and information networks in conjunction with
the unified commands, Services, and Defense agencies. In addition,
Presidential Decision Directive 63 requires each Executive department to
develop a plan and take deliberate actions to protect its specific information
infrastructure.

          National Infrastructure Protection Center. The National
Infrastructure Protection Center, established in February 1998, coordinates
investigative information related to computer network intrusions and provides
early warnings of threats. It is an interagency, public-private entity of
representatives from Federal agencies, including DoD, state and local
governments, and the private sector. Presidential Decision Directive 63
requires that DoD assign personnel to the National Infrastructure Protection
Center. DoD assigned 18 personnel for 2 years, with an option to extend for
another year. The assigned positions ranged from administrative assistant to
Deputy Chief, National Infrastructure Protection Center, and included criminal
investigators in management positions.

Since May 2000, the General Accounting Office testified several times about
critical infrastructure protection, including the DoD critical infrastructure. The
testimony summarized that the DoD and others needed to improve efforts to
protect critical infrastructure; specifically, efforts to gather and share data. For
example, the Director of Governmentwide and Defense Information Systems
and the Director of the Office of Computer Information Technology
Assessment, General Accounting Office, testified in May 2000 about the
ILOVEYOU computer virus. The testimony included DoD as an example of an
entity requiring action because of the virus. DoD was also one of the subjects
of critical infrastructure testimony in June, July, and September 2000, and
May 2001.

13. Describe the specific methods (for example, audits or inspections) used
by the agency to ensure that contractor-provided services (for example,
network or website operations) or services provided by another agency are
adequately secure and meet the requirements of the Security Act, OMB




                                     14
policy and NIST guidance, national security policy, and agency policy.
(Sections 3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of the Security
Act.)

Audits are one method DoD uses to identify weaknesses in the policies and
procedures used to acquire IT assets and services. In the past 2 years, six
reports were issued addressing contractor developed and provided software.

Inspector General, DoD, Report No. D-2001-141, “Allegations to the Defense
Hotline on the Defense Security Assistance Management System,” June 19,
2001, stated that since 1995, the contractor for the Defense Security Assistance
Management System used 174 employees without security investigations,
including at least 38 foreign nationals, to work on the system. The report
further stated that contractor employees without security investigations worked
on 52 out of 364 task orders reviewed that were awarded on the DISA Defense
Enterprise Integration Services II contract. Management agreed to amend DoD
Regulation 5200.2-R to require uniform investigative and adjudicative
requirements for all contractor employees including foreign nationals.

Inspector General, DoD, Report No. D-2001-127, “Data Reliability Assessment
Review of win.COMPARE2 Software,” May 23, 2001, stated that the
win.COMPARE2 software, for which the Air Force contracted development,
had adequate general and application controls.

Inspector General, DoD, Report No. D-2001-148, “Automated Transportation
Payments,” June 22, 2001, stated that the U.S. Transportation Command
contracted for a commercial electronic commerce package to make
transportation payments. The commercial package did not have adequate
controls to safeguard sensitive financial information or ensure production of
reliable data. In addition to recommendations on the specific commercial
package, the report recommended that the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence) clarify and expand the
guidance on commercial products.

The Air Force Audit Agency completed three audits on contractor-provided
services: Report No. 99066040, “Air Force Research Laboratory UNIX-Based
Computer Systems,” May 21, 2001; Report No. 99066017, “Information
Assurance—Implementing Controls Over Known Vulnerabilities in Air Force
Space Command Computers,” May 26, 2000; and Report No. 99066019,
“Information Assurance—Implementing Controls Over Known Vulnerabilities in
Air Force Materiel Command Computers,” March 2, 2000. The Air Force
contract administration efforts and oversight provisions did not provide adequate
managerial control. Specifically, contracts within two major commands did not
specify performance criteria for implementing countermeasures identified in the
Air Force Computer Emergency Response Team advisories. All five contracts
reviewed at one major command did not contain requirements for the contractor
to adhere and respond to the advisories in required time frames. During
followup within that command, the Air Force Audit Agency noted that the
command leadership began reversing contracting-out efforts and turning to
military and civil service personnel for operating networks and technology
services for the command.


                                   15
Appendix A. Evaluation Process

Scope
    This report is in response to the GISRA requirements of the Floyd D. Spence
    National Defense Authorization Act for FY 2001. This report includes
    information assurance weaknesses identified in the Information Assurance
    Challenges summary report, which discussed reports issued from April 1, 2000,
    through August 22, 2001, and results from the independent evaluation of a
    subset of DoD systems. The independent evaluation, Inspector General, DoD,
    Report No. D-2001-183, “Implementation of DoD Information Security Policy
    for Processing Accomplished at Defense Enterprise Computing Centers,”
    September 19, 2001, was accomplished January through July 2001. The Army
    Audit Agency and Air Force Audit Agency supported the GISRA effort by
    evaluating applications in the selected subset and by responding to the OMB
    questions in Memorandum 01-24, “Reporting Instructions for the Government
    Information Security Reform Act.”

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to information assurance as well as achievement of the following goal,
    subordinate performance goal, and performance measure.

           •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-02)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5) FY2001
               Performance Measure 2.5.3: Qualitative Assessment of Reforming
               Information Technology (IT) Management. (01-DoD-2.5.3).

    Reform Goals. Most major DoD functional areas have also established
    performance improvement reform objectives and goals. This report pertains to
    achievement of the following functional area objectives and goals.

           Information Management Functional Area.

           •   Objective: Provide services that satisfy customer information needs.
               Goal: Modernize and integrate Defense Information Infrastructure.
               (IM-2.3) Goal: Improve information technology management tool.
               (IM-2.5)



                                        16
           •   Objective: Reform information technology management processes to
               increase efficiency and mission contribution. Goal: Institutionalize
               provisions of the Information Technology Management Reform Act
               of 1996. (IM-3.1) Goal: Institute fundamental information
               technology management reform efforts. (IM-3.2)

           •   Objective: Ensure DoD’s vital resources are secure and protected.
               Goal: Make Information Assurance (IA) an integral part of DoD
               Mission Readiness Criteria. (IM-4.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    lists information assurance as a high-risk area. Although the Secretary of
    Defense annually establishes DoD-wide corporate-level goals and performance
    measures to address the requirements of the Government Performance and
    Results Act, the Department does not currently provide corporate-level goals for
    information assurance. This report provides coverage of the Information
    Security and System Modernization high-risk areas.

Methodology
    To assess the IT security posture of DoD, we selected a random sample of
    applications from a subset of systems. For those applications, the objective was
    to identify security personnel, such as the information system security officer
    and the designated approval authority, and to determine whether the applications
    had a Certification and Accreditation or an Interim Authority to Operate. We
    constructed a spreadsheet in which to compile and analyze results from our
    subset of systems.

    Use of Computer-Processed Data. Computer-generated information was the
    source for selecting the subset, but was not used as evidence in a finding.

    Universe and Sample. We identified applications operating or residing on the
    DISA Centers and Detachments as our subset of systems, the universe for this
    sample. In response to our request for DISA-supported applications, DISA
    Western Hemisphere provided a listing of 4,939 applications on Center and
    Detachment systems that were billed to customers. We did not validate the
    number of applications that DISA provided on its listing. Analysis of the
    4,939 applications determined that multiple occurrences of the same names
    appeared. Operations research analysts from the Quantitative Methods
    Division, Office of the Assistant Inspector General for Auditing, aggregated the
    list to include only unique names of applications, which left 1,365 applications.
    The analysts then generated a simple random sample of 90 applications.

             Measurement Issues. The listing of applications that DISA Western
    Hemisphere provided consisted of every line item billed by DISA. Some items
    were not, in fact, applications, but space on the network that customers must
    pay to use. We also found inactive or unacknowledged applications, so we
    could not test the sample items for the attributes demonstrating security policy
    implementation. See Appendix C for details of the 90 sample applications. The


                                        17
categories of sample results and the number of applications in each category are
shown below.
                           Table A1. Sample Results by Certification and
                              Accreditation Status Category
                    Category                                                 Sample Result
Current Certification and Accreditation
 or Interim Authority to Operate                                                  33
Out of Date Certification and Accreditation
 or Interim Authority to Operate                                                   2
No Certification and Accreditation and
no Interim Authority to Operate, or incomplete                                    19
Other IT                                                                           9
Unable to test the Certification and Accreditation
 or Interim Authority to Operate status                                           27
  Total                                                                           90
          Measurement Results. The operations research analysts projected the
confidence intervals reported below using a 90 percent confidence level. The
results shown in the report are the point estimates projected for the universe of
1,365 unique applications. The complete results of the projections are shown
below.
                    Table A2. Certification and Accreditation Status
                      Projected to the Population of Applications
                                             Lower                  Point1              Upper
                  Category                   Bound                 Estimate             Bound
Current Certification and
  Accreditation or Interim
  Authority to Operate             383                                501                    618
Out of date Certification
  and Accreditation or Interim
  Authority to Operate              --2                                30                    72
No Certification and Accreditation
  and no Interim Authority to
  Operate, or incomplete
  (certification only)             187                                288                    389
Other IT                            60                                137                    213
Unable to test the status of the
  Certification and Accreditation
  or Interim Authority to Operate 297                                 410                    522
1
    The point estimate does not add up to the population due to rounding.
2
    The lower bound estimate is below zero; therefore, it is not reported.


                                              18
Use of Audit Assistance. The Army Audit Agency and the Air Force Audit
Agency gathered and analyzed data for those sample items that belonged to
customers within their respective Component. The Army Audit Agency
gathered and analyzed data for 34 sample items, and the Air Force Audit
Agency gathered and analyzed data for 19 sample items. We accepted that data
without further review and merged it into a common spreadsheet for
interpretation of the overall sample results. The Army Audit Agency and the
Air Force Audit Agency also provided responses to the specific questions from
the OMB reporting guidance. See Appendixes C and D, respectively.

Use of Technical Assistance. One computer engineer from the Technical
Assessment Division, Office of the Assistant Inspector General for Auditing,
assisted in planning the audit. In addition, two operations research analysts
from the Quantitative Methods Division, Office of the Assistant Inspector
General for Auditing, assisted in selecting the random sample from the subset of
applications and interpreting the results.

Evaluation Dates. We conducted this program evaluation from January 2001
through August 2001, in accordance with standards issued by the Inspector
General, DoD. The reports that provided source information were issued
between April 1, 2000, and August 22, 2001.

Contacts During the Audit. We visited or contacted individuals and
organizations within the DoD. Further details are available upon request.




                                   19
Appendix B. Prior Coverage
     The following reports discussing elements of information security in the DoD
     were issued from April 2000 through August 2001. Summaries of each of the
     listed reports appear in Report No. D-2001-182, “Information Assurance
     Challenges--a Summary of Results Reported April 1, 2000, through August 22,
     2001,” September 19, 2001


General Accounting Office
     GAO-01-959T, “Electronic Government: Challenges Must be Addressed with
     Effective Leadership and Management,” July 11, 2001

     GAO-01-783, “Department of Defense: Status of Achieving Outcomes and
     Addressing Major Management Challenges,” June 25, 2001

     GAO-01-769T, “Critical Infrastructure Protection—Significant Challenges in
     Developing Analysis, Warning, and Response Capabilities,” May 22, 2001

     GAO-01-600T, “Computer Security—Weaknesses Continue to Place Critical
     Federal Operations and Assets at Risk,” April 5, 2001

     GAO-01-583T, “Information and Technology Management—Achieving
     Sustained and Focused Governmentwide Leadership,” April 3, 2001

     GAO-01-307, “Information Security: Progress and Challenges to an Effective
     Defense-wide Information Assurance Program,” March 30, 2001

     GAO-01-341, “Information Security: Challenges to Improving DoD’s Incident
     Responsibilities Capabilities,” March 29, 2001

     GAO-01-277, “Information Security—Advances and Remaining Challenges to
     Adoption of Public Key Infrastructure Technology,” February 26, 2001

     GAO-01-89, “Financial Management: Significant Weaknesses in Corps of
     Engineers’ Computer Controls,” October 11, 2000

     GAO/T-AIMD-00-314, “Computer Security—Critical Federal Operations and
     Assets Remain at Risk,” September 11, 2000

     GAO/AIMD-00-296R, “Federal Agencies’ Fair Information Practices,”
     September 11, 2000

     GAO/AIMD-00-295, “Information Security: Serious and Widespread
     Weaknesses Persist at Federal Agencies,” September 6, 2000




                                       20
     GAO/T-AIMD-00-268, “Critical Infrastructure Protection—Challenges to
     Building a Comprehensive Strategy for Information Sharing and Coordination,”
     July 26, 2000

     GAO/AIMD-00-188R, “Software Change Controls at the Department of
     Defense,” June 30, 2000

     GAO/T-AIMD-00-229, “Critical Infrastructure Protection—Comments on the
     Proposed Cyber Security Information Act of 2000,” June 22, 2000

     GAO/AIMD-00-209R, “Defense Software Development,” June 15, 2000

     GAO/T-AIMD/GGD-00-179, “Electronic Government—Federal Initiatives Are
     Evolving Rapidly But They Face Significant Challenges,” May 22, 2000

     GAO/T-AIMD-00-181, “Critical Infrastructure Protection—“ILOVEYOU”
     Computer Virus Highlights Need for Improved Alert and Coordination
     Capabilities,” May 18, 2000

     GAO/T-AIMD-00-171, “Information Security—“ILOVEYOU” Computer Virus
     Emphasizes Critical Need for Agency and Governmentwide Improvements,”
     May 10, 2000


Inspector General, DoD
     Report No. D-2001-183, “Implementation of DoD Information Security Policy
     for Processing Accomplished at Defense Enterprise Computing Centers,”
     September 19, 2001

     Report No. D-2001-182, “Information Assurance Challenges-A Summary of
     Results Reported April 1, 2000, through August 22, 2001,” September 19, 2001

     Report No. D-2001-175, “Application of Year 2000 Lessons Learned,”
     August 22, 2001

     Report No. D-2001-166, “Defense Joint Military Pay System Security Functions
     at Defense Finance and Accounting Service Denver,” August 3, 2001

     Report No. D-2001-148, “Automated Transportation Payments,” June 22, 2001

     Report No. D-2001-141, “Allegations to the Defense Hotline on the Defense
     Security Assistance Management System,” June 19, 2001

     Report No. D-2001-137, “Certification of the Defense Civilian Personnel Data
     System,” June 7, 2001

     Report No. D-2001-136, “Defense Clearance and Investigations Index
     Database,” June 7, 2001



                                       21
Report No. D-2001-130, “DoD Internet Practices and Policies,” May 31, 2001

Report No. D-2001-127, “Data Reliability Assessment Review of
win.COMPARE2 Software,” May 23, 2001
Report No. D-2001-101, “Controls Over Electronic Document Management,”
April 16, 2001

Report No. D-2001-095, “Controls for the Electronic Data Interchange at the
Defense Finance and Accounting Service Columbus,” April 6, 2001

Report No. D-2001-068, “Inspector General, DoD, Oversight of the Audit of
the FY 2000 Military Retirement Fund Financial Statements,” February 28,
2001

Report No. D-2001-055, “General Controls for the Defense Civilian Pay
System,” February 21, 2001 (For Official Use Only)

Report No. D-2001-052, “Controls Over the Defense Joint Military Pay
System,” February 15, 2001 (For Official Use Only)

Report No. D-2001-044, “Accreditation Policies and Information Technology
Controls at the Defense Enterprise Computing Center Mechanicsburg,”
February 9, 2001 (For Official Use Only)

Report No. D-2001-046, “Information Assurance at Central Design Activities,”
February 7, 2001

Report No. D-2001-029, “General Controls Over the Electronic Document
Access System,” December 27, 2000

Report No. D-2001-019, “Program Management of the Defense Security
Service Case Control Management System,” December 15, 2000

Report No. D-2001-017, “Unclassified but Sensitive Internet Protocol Router
Network Security Policy,” December 12, 2000

Report No. D-2001-016, “Security Controls Over Contractor Support for
Year 2000 Renovation,” December 12, 2000

Report No. D-2001-013, “DoD Compliance with the Information Assurance
Vulnerability Alert Policy,” December 1, 2000

Report No. D-2000-182, “Data Processing Control Issues for the FY 1999
Military Retirement Fund,” August 31, 2000 (For Official Use Only)

Report No. D-2000-142, “Defense Information Systems Agency’s Acquisition
Management of the Global Combat Support System,” June 9, 2000




                                  22
       Report No. D-2000-139, “Controls Over the Integrated Accounts Payable
       System,” June 5, 2000

       Report No. D-2000-122, “Information Assurance in the Advanced Logistics
       Program,” May 12, 2000

       Report No. D-2000-116, “Configuration Changes to Year 2000 Compliant
       Mission-Critical and Date-Dependent Systems,” April 25, 2000


Army
       Report No. AA 01-319, “Corps of Engineers Financial Management System:
       General and Application Controls,” June 26, 2001

       Report No. AA 00-287, “Information Assurance—Phase V: Information
       Assurance Vulnerability Alert Process,” June 30, 2000

       Report No. AA 00-286, “Information Assurance—Phase IV: Reporting Process
       and Vulnerability Assessment Results.” June 30, 2000 (For Official Use Only)


Navy
       Report No. N2001-0029, “Department of the Navy Principal Statements for
       FY 2000: Feeder Systems and Interfaces,” June 1, 2001

       Report No. N2000-0045, “Navy Working Capital Fund Financial Management
       Feeder Systems for Fiscal Year 1999,” September 29, 2000


Air Force
       Report No. 01066018, “Access Controls at Air Force High Performance
       Computing Centers,” June 26, 2001

       Report No. 01066002, “Database Security Controls,” June 7, 2001

       Report No. 99066040, “Air Force Research Laboratory UNIX-Based Computer
       Systems,” May 21, 2001

       Report No. 00054006, “Air Force Restoration Information Management System
       Controls,” May 18, 2001

       Report No. 00066006, “Implementation of Network Management System/Base
       Information Protection,” May 1, 2001

       Report No. 99066041, “Controls Over Air Force Composite Health Care
       Systems,” December 13, 2000


                                        23
Report No. 99066038, “Web Page Management,” November 8, 2000 (For
Official Use Only)

Report No. 99054027, “Review of Controls in the Command Online Accounting
and Reporting System (COARS),” November 1, 2000

Report No. 99066018, “Information Assurance—Implementing Controls Over
Known Vulnerabilities in Pacific Air Force Computer Systems,” August 11,
2000 (For Official Use Only)

Report No. 99066024, “Information Assurance—Implementing Controls Over
Known Vulnerabilities in Air Force Reserve Command Computers,” July 7,
2000 (For Official Use Only)

Report No. 99066017, “Information Assurance—Implementing Controls Over
Known Vulnerabilities in Air Force Space Command Computers,” May 26,
2000 (For Official Use Only)

Report No. 99066028, “Controls Within the Acquisition Due-In System,”
May 1, 2000




                                 24
Appendix C. Army Audit Agency Response to
            OMB Questions




                     25
26
27
28
29
30
31
32
33
34
35
Appendix D. Air Force Audit Agency Response
            to OMB Questions




                     36
37
38
39
40
41
Appendix E. Reports Specifying Management
            Control Weaknesses
   DoD Reports (Inspector General, Army Audit Agency, Naval Audit Service,
   and Air Force Audit Agency) identified the following weaknesses in policies,
   procedures, or practices; the first 13 reports state that the weaknesses were
   material:

   1. Inspector General, DoD, Report No. D-2001-148, “Automated
   Transportation Payments,” June 22, 2001, stated that management controls over
   the automated transportation payment process were not adequate to ensure that
   DoD resources were safeguarded. The controls were not adequate to safeguard
   sensitive information or to ensure the production of reliable data.

   2. Inspector General, DoD, Report No. D-2001-055, “General Controls for the
   Defense Civilian Pay System,” February 21, 2001, identified multiple
   weaknesses. The report discussed establishing an overall security program,
   controlling access to the system, implementing procedures for developing and
   changing computer software, establishing policies for proper segregation of
   duties, and establishing procedures for preventing disruptions in service to
   customers.

   3. Inspector General, DoD, Report No. D-2001-052, “Controls Over the
   Defense Joint Military Pay System,” February 15, 2001, stated that general
   controls over the subject system at DISA and the Defense Finance and
   Accounting Service were not adequate. The controls did not provide reasonable
   assurance of the integrity, confidentiality, and availability of computer-
   processed data.

   4. Inspector General, DoD, Report No. D-2001-101, “Controls over Electronic
   Document Management,” April 16, 2001, stated that management controls were
   not adequate to ensure the accuracy of electronic transactions using Electronic
   Document Management.

   5. Inspector General, DoD, Report No. D-2001-095, “Controls for the
   Electronic Data Interchange at the Defense Finance and Accounting Service
   Columbus,” April 6, 2001, stated that management controls could not ensure
   that the security for Electronic Data Access and Electronic Data Interchange
   were adequate.

   6. Inspector General, DoD, Report No. D-2001-044, “Accreditation Policies
   and Information Technology Controls at the Defense Enterprise Computing
   Center Mechanicsburg,” February 9, 2001, stated that management controls for
   the Mechanicsburg Center could not provide reasonable assurance of the
   adequacy of selected information system controls. The report further stated that
   DISA site recertification and reaccreditation decisions could be unreliable and
   inconsistent among DISA sites.



                                      42
7. Inspector General, DoD, Report No. D-2001-029, “General Controls Over
the Electronic Document Access System,” December 27, 2000, stated that
management controls were not adequate to ensure the accuracy of electronic
transactions using Electronic Document Access.

8. Inspector General, DoD, Report No. D-2001-019, “Program Management of
the Defense Security Service Case Control Management System,”
December 15, 2000, stated that management controls were inadequate for the
acquisition of the Case Control Management Systems and the Defense Security
Service Enterprise System.

9. Inspector General, DoD, Report No. D-2001-017, “Unclassified but
Sensitive Internet Protocol Router Network Security Policy,” December 12,
2000, stated that the lack of NIPRNet security policy guidelines was a material
management control weakness.

10. Inspector General, DoD, Report No. D-2000-182, “Data Processing
Controls Issues for the FY 1999 Military Retirement Fund,” August 31, 2000,
identified general control weaknesses in electronic data processing controls at
the computer processing locations servicing the Military Retirement Fund.
Control weaknesses included deficiencies in the design and operation of access
controls, security policies and procedures, and program change control.

11. Inspector General, DoD, Report No. D-2000-142, “Defense Information
Systems Agency’s Acquisition Management of the Global Combat Support
System,” June 9, 2000, stated that management controls were inadequate.
DISA had not integrated cost, schedule, and performance parameters into its
management control plan for the acquisition of GCCS. Specifically, control
objectives and techniques and evaluations for monitoring results and
effectiveness did not link to mission area planning, budgeting, project
management, accounting, and auditing cycles.

12. Inspector General, DoD, Report No. D-2000-139, “Controls Over the
Integrated Accounts Payable Systems,” June 5, 2000, stated that the DFAS
controls over the subject system and the processing of vendor payments were
not adequate to ensure that all payments were properly supported and valid.

13. Inspector General, DoD, Report No. D-2000-122, “Information Assurance
in the Advanced Logistics Program,” May 12, 2000, stated that management
controls were not adequate to ensure that information assurance was properly
addressed and evaluated during the development of the Advanced Logistics
Program.

14. Army Audit Agency Report No. AA 01-319, “Corps of Engineers
Financial Management System: General and Application Controls,” June 26,
2001, stated that internal controls over the Corps of Engineers’ Financial
Management System were not adequate to rely on for the Civil Works Program
financial statements. The Corps did not have a reliable set of computer controls
to ensure the integrity, confidentiality, and availability of financial and sensitive
data contained in the system.


                                     43
15. Army Audit Agency Report No. AA 00-286, “Information Assurance—
Phase IV: Reporting Process and Vulnerability Assessment Results,” June 30,
2000, stated that information systems at 15 locations had significant host-level
vulnerabilities. Poor configuration management controls allowed locally owned
systems and networks to have root access to Army information systems.

16. Naval Audit Service Report No. N2001-0029, “Department of the Navy
Principal Statements for FY 2000: Feeder Systems and Interfaces,” June 1,
2001, identified material internal control weakness, including incomplete
contract files and insufficient audit trails at three Naval Supply Systems
Command activities. Without audit trails, the Navy could not verify that data
was accurate, complete, and supportable, as required by the Financial
Management Regulation.

17. Naval Audit Service Report No. N2000-0045, “Navy Capital Working
Fund Financial Management Feeder Systems for FY 1999,” September 29,
2000, identified material internal control weaknesses for the Department of
Navy Capital Working Fund. The weaknesses included inadequate control of
access, failure to ensure backup and disaster recovery, and insufficient and
outdated system documentation.

18. Air Force Audit Agency Report No. 99066040, “Air Force Research
Laboratory UNIX-Based Computer Systems,” May 21, 2001, stated that
computer system personnel did not require adequate technical and management
controls for continued security over Air Force Research Laboratories systems
and information.

19. Air Force Audit Agency Report No. 00054006, “Air Force Restoration
Information Management Systems Controls,” May 18, 2001, stated that system
control weaknesses were identified for 6 of 11 control areas reviewed.
Managers of the Air Force Restoration Information Management System had not
established adequate system password and data access controls or ensured that
the system provided a transaction history and audit trails.

20. Air Force Audit Agency Report No. 99066038, “Web Page Management,”
November 8, 2000, identified management control weaknesses for web pages,
establishing web master core training requirements, and enhancing web server
security.

21. Air Force Audit Agency Report No. 99054027, “Review of Controls in the
Command Online Accounting and Reporting System (COARS),” November 1,
2000, stated that general controls for the subject system did not meet financial
management system requirements. The system did not meet requirements for
separation of duties, access controls, system software, and physical security.
The Air Force had no assurance that the system applications were running in a
secure, controlled environment.

22. Air Force Audit Agency Report No. 99066018, “Information Assurance—
Implementing Controls Over Known Vulnerabilities in Pacific Air Force
Computer Systems,” August 11, 2000, identified weaknesses for the Pacific Air


                                   44
Force computer systems in configuration management controls. Controls did
not ensure that current vendor patches and service packs were loaded on all
computers and that users were assigned proper privileges. In addition,
identification and authentication controls to prevent unauthorized access to
information on networked computers were weak.

23. Air Force Audit Agency Report No. 99066028, “Controls Within the
Acquisition Due-In System,” May 1, 2000, identified control weaknesses for the
Acquisition Due-In System in access controls, transaction histories and audit
trails, transaction controls, completeness controls, and documentation.




                                  45
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense, Deputy Chief Information Officer
  Deputy Assistant Secretary of Defense, Security and Information Operations
      Director, Defense-Wide Information Assurance Program

Joint Staff
Director, Joint Staff
  Director, Operations
     Deputy Director for Operations (Information Operations)
  Director, Command, Control, Communications, and Computers
     Chief, Information Assurance Division, Deputy Director for Command, Control,
         Communications, and Computers Assessment and Technology

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Chief Information Officer, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Navy Chief Information Officer
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Chief Information Officer, Department of the Air Force
Auditor General, Department of the Air Force




                                          46
Other Defense Organizations
Commander, Joint Task Force Computer Network Defense
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations
Office of Management and Budget
  Office of the Information and Regulatory Affairs
  National Security Division
General Accounting Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         47
Evaluation Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, General
DoD, who contributed to the report are listed below.

Mary L. Ugone
Wanda A. Hopkins
Robert K. West
Judith I. Padgett
Bryon J. Farber
Richard B. Vasquez
Heather L. Jordan
Mandy L. Rush
Henry D. Barton
Dharam V. Jain
Ann Ferrante
Jacqueline N. Pugh
